No.
IN THE SUPREME COURT OF THE UNITED STATES
________________
UNITED STATES OF AMERICA, PETITIONER
v.
JOSE LUIS VAELLO-MADERO
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 4TH day of September 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6248 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 4, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 4, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

United States v. Jose Luis Vaello Madero:
Hermann Ferré
Juan O. Perla
Robert Groot
Curtis, Mallet-Prevost, Colt & Mosle LLP
101 Park Avenue
New York, NY 10178
hferre@curtis.com
jperla@curtis.com
rgroot@curtis.com
John W. Ferré-Crossley
P.O. Box 14773
San Juan, PR 00919

